 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




NATIONAL PRACTITIONER DATA BANK

      REPORTS TO HOSPITALS:

  THEIR USEFULNESS AND IMPACT





                     @ SERWCE8   “t+
                J+
                                       -/
              -+

          $                                 m      cmBs BROm

          :
                                Inspector   General

          2
          ‘3

           ~++        $


             %vd3a                                APRIL 1995
              >
                                                OEI-01-94-OO030
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandatedby Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and managementproblems and recommends courses to correct them.

                            OFFICE OF AUDIT SERVICES

The OIG’SOffice of Audit Services (OAS)provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilitiesand are intended to provide independentassessmentsof HHS
programs and operations in order to reduce waste, abuse, and mismanagementand to promote
economy and efficiency throughout the Department.

                            OFFICE OF INVESTIGATIONS

The OIG’SOffice of Investigations(01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigativeefforts of 01 lead to criminal convictions, administrative
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

                OFFICE OF EVALUATION AND INSPECTIONS
The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections)that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendationscontained in these inspection reports
generate rapid, accurate, and up-todate information on the efficiency, vulnerability, and
effectiveness of departmental programs.

Thk report was prepared in the Boston Region Office under the direction of Mark R. Yessian,
Ph.D., Regional Inspector General and Martha B. Kvaal, Deputy Regional Inspector General.
Project staff included:

BOSTON REGION                                           HEADQUARTERS

David Veroff, Project Leader                            Alan Levine, Program Specialist

Joyce Greenleaf, Program Analyst

Barry McCoy, Program Analyst

Michael Sullivan, Summer Intern


For additional copies of this report, please contact the Boston regional oflice by telephone at
(617) 565-1050, or by fa at (617) 565-3751.
             EXECUTIVE                           SUMMARY

PURPOSE

To update an assessment of the usefi-dness and impact of information in the National
Practitioner Data Bank to hospitals.

BACKGROUND

Since September 1, 1990, the National Practitioner Data Bank (hereafter referred to as the

Data Bank) has received and maintained records of malpractice payments and adverse

actions against licensed health care practitioners. It provides hospitals and other health

care entities with information relating to the professional competence and conduct of

health care practitioners. Hospitals are required to request information from the Data

Bank about every physician and dentist who applies for appointment. In addition, hospitals

must query at least once every 2 years on every practitioner who is on their medical staff

or who has privileges. They may query about any practitioner seeking or holding

privileges at any time. As of February 25, 1994, hospitals had received, in response to

queries, 108,552 reports of malpractice payments or adverse actions against physicians,

dentists, and other health care practitioners.


In February 1993, we released a report that evaluated the usefulness and impact of reports

to hospitals through March 1992. In December 1993, the Administrator of the Health

Resources and Services Administration (HRSA) asked us to update the information in the

February 1992 report using more recent data. We agreed to conduct the study. Our

February 1993 report found that a majority of Data Bank reports were useful to hospitals

as reflected by a number of measures of usefulness. However, it was very rare for Data

Bank reports to lead hospitals to make privileging decisions they would not have made

without the reports.


The data in this report result from a survey we conducted of hospitals that received

reports of malpractice payments or adverse actions from the Data Bank. We sampled

400 matches--instances when a querying hospital received a report of a specific incident-­

from the universe of 89,430 hospital matches from March 20, 1992 through

February 25, 1994. We asked hospital officials questions about how they used and what

their assessments were of the reports; we received 257 useable responses. Throughout the

report we compare the results of our original study, which covered the period from

September 1, 1990 through March 19, 1992 (period A), to the results of this survey,

which covered the period from March 20, 1992 through February 25, 1994 (period B).

Appendix A gives details of our methodology.





                                             i
FINDINGS

USEFULNESS TO HOSPITMS: Hospital officials found a much higher propoti”on of
reports to be useful; however, a much smaller propoti”on of reports provided
inforndon that was previously unknown to hospital staff.

�     The proportion of reports that hospital officials consider useful increased from
      58 percent in the period from September 1, 1990 to March 19, 1992 (period A) to
      83 percent in the period from March 20, 1992 to February 25, 1994 (period B).

�     Response time, which had been very problematic in the early part of period A,
      improved significantly toward the end of period A; that improvement was
      maintained throughout period B. The Data Bank’s electronic querying process,
      which was begun in period B, allowed hospitals to receive reports much more
      quickly than if they submitted queries by mail.

�     The proportion of reports that provided information previously unknown to hospital
      staffs declined from 40 percent in period A to 28 percent in period B.

�     In neither period did hospital officials see accuracy of reporting to be a large
      problem.

�     The reasons hospital officials found reports useful or not useful remained largely
      unchanged. The most commonly cited reason in both periods for the reports being
      useful was that they coni%rned information from other sources; the most commonly
      cited reason in both periods for the reports not being useful was that they
      duplicated information available elsewhere.

�     (Measured only in period B.) Seventy-seven percent of our respondents felt that
      responses from the Data Bank that listed no adverse information were at least
      somewhat useful to them. Seventy-one percent found it worthwhile to query the
      Data Bank about all practitioners, as the current law requires.

IMPACT ON DECISIONS: In both periods, hospitals seldom made different privileging
decisions than they would have made without the Data Bank reports.

�     In period A, according to hospital officials, if hospitals had not received the Data
      Bank reports, their privileging decisions would have been different 1 percent of the
      time; in period B, thk figure was 2 percent.

�     In period A, 80 percent of reports had little chance to have an impact on hospitals’
      privileging decisions; in period B, this figure dropped to 75 percent. These reports
      arrived after the decision was made, duplicated available information, or the
      practitioner did not go through the privilege decision process.




                                             ii
�      Thepercent ofrepofis that could have hadtipact onhospitils' privileging
       decisions butdidnot increased from 19percent (23 reports) inperiod A to
       24 percent (56reports) inperiod B. These arereports that hospitals received
       before they made their privileging decisions and that provided them with new
       information on a practitioner.

CONCLUSION

The information in this report contributes to an understanding of the usefidness and impact
of the Data Bank in hospitals. It reveals that the Data Bank is operating much more
smoothly than during its early implementation period. Hospital officials are receiving
reports in a much more timely fashion and they are now much more likely to characterize
Data Bank information as useful. At the same time, our data reveal that Data Bank
reports seldom affect privileging decisions of hospitals.

During this and prior inspections on the Data Bank, we have become ever more aware of
differing expectations of the Data Bank. Thus, any assessments of the Data Bank’s
usefulness and impact will depend heavily on how these expectations are expressed and on
the relative emphasis given to them. In that context, we offer the following concluding
observations concerning three important expectations about the Data Bank.

�      Data Bank as a Reliable, Centralized Source of Information. In the sense that
       the Data Bank is expected to serve as such a source of information about adverse
       actions and medical malpractice payments, it seems to be working quite well. It is
       a timely, accurate source that is widely regarded as useful--mainly because it
       confirms information available from other (presumably less reliable) sources.

�      Data Bank as a Unique Source of Information. In the sense that the Data Bank is
       expected to serve as a unique source of information--that is, one unavailable
       elsewhere--it clearly has some value. In our sample, 28 percent of the reports
       provided new information to the hospitals. That 28 percent projects to
       25,040 reports providing new information to hospitals over a period of almost
       2 years.

�      Data Bank as a Mechanism to Protect the Public by Preventing Incompetent
       and/or Unprofessional Practitioners from Practicing in Hospitals. Clearly, this is
       the most ambitious and controversial of these expectations. It is also the one most
       difficult to assess without more information. In one sense, the fact that 2 percent
       of reports are having an impact on privileging decisions may seem inappropriately
       low. It may suggest that hospitals are overly reluctant to take adverse actions
       against incompetent and/or unprofessional practitioners.

       Yet, to the extent that only a small percent of practitioners are unfit to practice,
       one may argue that nothing is necessarily inappropriate about 2 percent of reports,
       which projects to 1,520 reports over a period of almost 2 years, having an impact
       on privileging decisions. These 1,520 reports involve hundreds of practitioners


                                             111

       and affect thousands of patients they serve. Finally, it is important to recognize
       that the very existence of the Data Bank may deter some unfit practitioners from
       even applying to hospitals for practice privileges and may encourage other
       practitioners to be more forthcoming in the applications they submit for hospital
       privileges.

COMMENTS ON THE DRAITI’REPORT

We solicited and received comments on the draft report from the Public Health Service
(PHS), the Assistant Secretary for Planning and Evaluation (ASPE), the American
Hospital Association (AHA), and the American Medical Association (AMA). Their
comments appear in fill in appendix C. Below we summarize their comments, and, in
italics, our responses.

PHS Comments

The PHS expressed appreciation for our inquiry and indicated that the report would be
helpful. It called for one minor change in the background section of the report where we
explain the Data Bank law. We appreciate the positive response f?om PHS. We made the
change requested.

ASPE Comments

The ASPE supported the purpose of our inquiry and noted that the methodology seemed to

be “appropriate.” It added, however, that the conclusion that the Data Bank is useful is

questionable and that the data in the report might be used to support a contrary

conclusion. We did not conclude that the Data Bank is usefil. We elaborated on how

one’s assessments of usefulness and impact will depend heavily on one’s expectations of

the Data Bank.


AHA Comments

The AHA found it “encouraging” that hospital respondents regarded Data Bank reports to
be more usefid and timely than during our prior survey period. At the same time, it
expressed concern that the supplemental role of the Data Bank in hospital credentialing
and privileging efforts may come at “too high a price. ” How one assesses the
pefonnance of the Data Bank, as we noted above, is likely to depend heavily on one’s
expectations of it in the first place. Our intention, in focusing on the usefulness and
impact of Data Bank reports, was to contribute to such assessments whatever one’s
starting place.

AMA Comments

The AMA expressed considerable concern about the cost-effectiveness of the Data Bank
and about our report. As with our prior report, it found this one misleading in that it
focused on the universe of matches rather than the much larger universe of queries to the


                                             iv
Data Bank. It also found misleading our findings that (1) 77 percent of the hospital
respondents found Data Bank responses with no adverse information about a practitioner
to be at least somewhat useful and (2) 71 percent found it worthwhile to query the Data
Bank for all practitioners, as the law requires. It specified that the Likert scale we used
for the former finding and the yes-no format for the latter accounted for what “may have
been predictable” responses. Finally, it commented that we gave insufficient attention to
our draft report finding that 5 percent of hospital respondents found the Data Bank match
reports sent them to be incomplete.

We disagree with the Ah4A on the value of focusing on matches. In our prior report and
in this one, we focused on matches to provide discrete, practical feedback on the
information actually provided to hospitals by the Data Bank. With respect to the above-
noted findings, we note that the 77percent of respondents who regarded the Data Bank
responses with no adverse information to be at least “somewhat useful” included
26 percent who regarded it as “extremely or very usejl.d” and 27percent as “moderately
usefil. “ The use of a yes-no format to record an overall assessment of the Data Bank is,
we believe, an unbiased approach toward obtaining a basically positive or negative
reaction. Finally, we agreed with the AMA that if 5 percent of Data Bank repotis were
incomplete that would be significant information warranting immediate attention.
Accordingly, we conducted a follow-up inquiry, and, as we note on page 7, found that all
of the reports initially cited as incomplete were explainable as timing issues or as
respondent errors. None involved actual nonrepotiing to the Data Bank.




                                              v
                     TABLE                 OF        CONTENTS

                                                                                                       PAGE

EXECUTIVE SUMMARY


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   . . . . . . .   .1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        . . . . . . .   .3


  � Usefulness to Hospitals..         . . . . . . . . . . . . . . . . . . . . . . . . . . .   . . . . . . .   .3


  � Impact   onDecisiom       ................................ . . . . . .                                     10


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            . . . . . . .    13


COMMENTS ON THE DRAFI’ REPORT                          . . . . . . . . . . . . . . . . . .    . . . . . . .    14


APPENDICES


A: Methodology        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     . . . . . .     A-1


B: Summary of Hospitals’ Responses to OIG Mail Survey . . . . . . . . . . . . . . . . . B-1


c:   Complete Comments ontheDraft            Report.     . . . . . . . . . . . . . . . . . . . . . . . . c-1


D: Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-1

                          INTRODUCTION

PURPOSE

To update an assessment of the usefulness and impact of information in the National
Practitioner Data Bank to hospitals.

BACKGROUND

Since September 1, 1990, the National Practitioner Data Bank has received and
maintained records of malpractice payments and adverse actions taken by hospitals, other
health care entities, licensing boards, and professional societies against licensed health
care practitioners. It provides hospitals and other health care entities with information
relating to the professional competence and conduct of physicians, dentists, and other
health care practitioners. The Data Bank was established by Title IV of the Health Care
Quality Improvement Act of 1986 (P.L. 99-660), as amended, and is fi.mded by user fees.
It is operated by the Unisys Corporation under contract to the Health Resources and
Services Administration (HRSA) of the Public Health Service (PHS).

Hospitals are required to request information from the Data Bank about every physician
and dentist who applies for appointment. Hospitals must query about all medical and
dental staff and other health care practitioners with clinical privileges at least once every
2 years. They have the option of querying about any practitioner with privileges (or who
is seeking privileges) at any time. The Data Bank is intended to provide information to
hospitals to help them make decisions about hiring, granting privileges to, and disciplining
practitioners.

As of February 25, 1994, hospitals had received, in response to queries, 108,552 matched
reports of malpractice payments or adverse actions against physicians, dentists, and other
health care practitioners. We summarized in detail the profiles of these “matches” in a
report released in August 1994.1

In February 1993, we released a report that evaluated the usefulness and impact of reports
to hospitals through March 1992.2 That report provided officials in the Department and
parties interested in the Data Bank with an early evaluation of the Data Bank’s
effectiveness and utility. In December 1993, the Administrator of HRSA asked us to
update the information in the February 1993 report using more recent “matches.” He
cited significant changes in the operation of the Data Bank, a more sizable universe from
which to draw experiences, and the usefulness of the report to officials in HRSA as
reasons for his request. We agreed to conduct the study. In addition to this report, we
are issuing a similar report summarizing the experiences of health maintenance
organizations, preferred provider organizations, and group practices using Data Bank
information.




                                               1

SUMMARY OF FEBRUARY 1993 REPORT

Our February 1993 report found that a majority of Data Bank reports were useful to
hospitals using a number of measures of usefulness. However, it was very rare for Data
Bank reports to lead hospitals to make privileging decisions they would not have made
without the reports. Because usefulness of the reports was sharply affected by the
timeliness of reporting, we recommended that PHS take steps to improve and report upon
timeliness. We also recommended that the Joint Commission on Accreditation of
Healthcare Organizations establish guidelines on how quickly hospitals should query after
receiving privilege applications. We received generally positive comments on a draft of
the report. The most significant objections to it came from the Assistant Secretary for
Planning and Evaluation in the U.S. Department of Health and Human Services and the
American Medical Association (AMA), both of whom objected to our allowing users to
develop their own definitions of usefulness. The AMA also sharply disagreed with our
methodology of looking solely at “matches” and not looking at reports that listed no
information on file.

METHODOLOGY

The data presented in this report are derived from a survey of hospitals that received
reports of malpractice payments or adverse actions from the Data Bank. Our
methodology was intended to allow us to compare that data to the results of the study
published in February 1993; therefore, the survey questions, whenever possible, were
asked in an identical manner. We did, however, attempt to address some of the concerns
raised by our earlier report. Notably, we probed more about why reports did not have
impact and asked about the usefi.dness of receiving verification that no information is in
the Data Bank. We sampled 400 matches--instances when a querying hospital received a
report of a specific incident--from the universe of 89,430 hospital matches from
March 20, 1992 through February 25, 1994. We received 257 useable responses. Our
findings can be projected to this universe of matches. Appendix A gives details of our
methodology and provides information about the reports, practitioners, and hospitals
included in the study.

We conducted this study in accordance with the Quali~ Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                             2

                                  FINDINGS

USEFULNESS TO HOSPITWS: Hospital officials found a much higher proportion of
reports to be useful; however, a much smaller propo~”on of reports provided
info--on     that was previously unknown to hospital staff.

Whether a report from the Data Bank is useful to a hospital depends on several factors.
Some factors can be determined objectively, such as whether the report provides new
information or duplicates other reports, whether it is accurate, and whether the report
arrives at the hospital in time to be used in the privileging process. Other factors are
more subjective, such as whether the report is relevant to the reported practitioner’s
competency and professionalism. Measured by both objective and subjective criteria, the
Data Bank appears to be continuing to provide useful information to hospitals (see
figure 1).

�	     The proportion of reports that hospital officials consider useful increased from
       58 percent in the period from September 1, 1990 to March 19, 1992 (period A) to
       83 percent in the period from March 20, 1992 to February 25, 1994 (period B).

In period A, there were no statistically significant differences in the percentages of reports

judged useful because of type of incident involved (malpractice payment vs. adverse

action), amount of malpractice payment, location of report (in-State vs. out-of-State), or

type of adverse action. In period B, however, adverse actions were significantly less

likely to be rated useful than malpractice payments. All the other comparisons showed no

differences (see table 1).


It is difficult to explain why adverse actions would be less likely to be rated useful,

especially since one might expect the opposite to be true. Indeed, when we asked hospital

officials about how they would rate, in general, hospital privileges action reports,

licensing board action reports, and malpractice payment reports, 70 percent rated licensing

board actions (in theory or in practice) extremely useful, 68 percent rated hospital

privileging actions extremely useful, and only 40 percent rated malpractice payments

extremely useful.3 The difference in the proportions is not affected by other available

information or by timeliness. There is no difference in the proportion of malpractice

reports and adverse action reports that provided information unavailable elsewhere.

Likewise, timeliness is not different for the two types of reports.


�	      Response time, which had been very problematic in the early part of period A,
        improved significantly toward the end of period A; that improvement was
        maintained throughout period B. The Data Bank’s electronic querying process,
        which was begun in period B, allowed hospitals to receive reports much more
        quickly than if they submitted queries by mail.




                                               3

                                                 Figure 1
                            USEFULNESS OF DATA BANK REPORTS:
                 Percent
                             Change From ParbcJA (9/1/90-3/31/92) To Period B (WWfZ-2/25/W
                   95-
                   9c-
                   85-     Propo#on &nsldemd     Useful

                   8t-
                   75-
                   70-
                   8t -
                   80-
                   55-
                   50-                                         ProtMion Priwidng Mnmdon
                   45-                                             Unavallabie Elsewbm
                   4c-
                   35-
                   3t-
                   25-
                   .20J
                      -
                                A            B                          A             B
                           Soumew Office of Inspector General Surveys of Hospital CMdals.
                           Note Perfod k N-142 Responses, Period B N-257 Responsea.




This improvement in response time helps account for the significant increase in the
proportion of reports considered to be usefi.d. In period A, officials often reported that
reports were not usefid because of their lack of timeliness.

In period A, we found that response time had been steadily improving over the study
period. The median response time dropped from 123 days to 26 days over the 18 month
period (measured each quarter). That decline in response time has not continued through
period B. The median response time was 23 days over period B and has ranged from
35 days to 14 days, with no particular trend over time. Still the overall improvement in
response time was dramatic (over the entire period A median response time was 44 days).

Early in period B, HRSA made software available to hospitals that allowed them to query
electronically. By the end of the Data Bank’s third year, 47 percent of all queries were
being submitted electronically .4 In period B, 26 percent of respondents used electronic
submission. Respondents who queried electronically received responses much faster than
those who did not (median is 17 days vs. 27 days). Interestingly, they were not more
likely to find the reports useful (82 percent of those who queried electronically found the
reports usefi,d while 84 percent of those who did not query electronically found them
useful).




                                                          4

                                                           TABLE      1
                          USEFULmS            To HOSPITW   OF DIFFEREN             TYPES
                                              OF DATA BANK REPORTS
                                                                          REPORTS
                                                                                CONSIDERED
                                                                                        USEFUL
TYPE    OF REPORT
                                                                      period A               period B
Incident Involved
                                                                     59%(N=74)             85%(N=219) *
       MalpracticePayment
                                                                     57%(N=9)              67%(N=24) *
       Adverse Action
Amount of MalpracticePayment
                                                                     57%(N=16)              90%(N=72)
       Less Than $30,000
                                                                     61%(N=25)              83%(N=147)
       $30,000 or More
 Type of Adverse Action
                                                                     53%(N=20)              75%(N=16)
       Board Llcensure Action
                                                                     64%(N=21)               50%(N=8)
       Hospital Privileges Action
 Location of Repofi
                                                                      81%(N=72)              85%(N=97)
        Out-of-State
                                                                      56%(N=11)             83%(N=146)
        In-State
  * Differences are signi#icmt at the 95 percent confidence level.
  Sources: @ice of Inspector General Surveys of Hospital ojiciak.


In period A, the proportion of reports arriving before hospitals made final decisions on the
practitioners involved ranged from 44 percent in the first quarter of the period to
66 percent in the last. In period B, the proportion of reports  arriving prior to the final
                                                           Better respome time accounts for
decision increased to 83 percent over the entire period.
 some of this improvement, but hospital officials were partly responsible for the low
 proportion of “on-time” arrivals. In period A, 18 percent of all reports did not arrive on
 time because the hospital submitted a query after having made a privileging decision. In
 period B, 6 percent did not submit their Data Bank request until after the decision;
 primarily because they felt they already had sufficient information to make the decision.

  �	        The proportion of reports that provided information previously unknown to hospital
            staffs declined from 40 percent in period A to 28 percent in period B.

  Practitioners themselves and malpractice insurers were more likely to be sources of
  information about incidents in the Data Bank reports in period B than they were in period
  A (see table 2). It is possible that the increase in the proportion of reports that gave
  hospitals information on the practitioners named in the reports provided was in part caused
  by the maturation of the Data Bank. The existence of the Data Bank and practitioner’s
  knowledge of the Data Bank being a source of information for hospitals may make
   practitioners more likely to disclose malpractice payment and adverse action information.
   It is likely that practitioners’ awareness of the Data Bank and of hospitals’ use of the Data

                                                                      5
                                               Increased awareness of the Data Bank might
Bank have grown since the end of Period A.
well be deterring practitioners from withholding information.

In period A, we cited problems with hospitals not receiving important information from
their own State’s licensing board and from other hospitals in their State; these problems
appear to be continuing. In period A, 20 percent of reports originally submitted by
licensing boards in the hospitils’ own States were the hospitals’ only source of ~owledge
 about the incident and 10 percent of the time hospitals only learned of board actlom from
 sources other than the boards. In period B, 8 percent of reports originally submitted by
 licensing boards in the hospitals’ own States were the only source of knowledge about the
 incident in the hospitals and 33 percent of the time hospitals only learned of board actions
 from sources other than the boards. In both periods A and B, 50 percent of Data Ba&
 re~orts
    .     on clinical privilege actions taken by other hospitals provided information
  otherwise unavailable.

                                                          TABLE      2

                                  SOURCES        OF DATA BANK INFORMATION
                                                                    PERCENT
                                                                          OFREPORTS
                                                                                  HOSPITAL
                                                                                         OFFICIALS
                                                                     WEREAWAREOFFROMEACHSOURCE
                                                                      PERIOD A:                     PERIOD B:
                            SOURCE                                                               (3/19/92-2/25/94)
                                                                    (9/1/90-3/18/92)
                                                                        (N= 142)                     (N=247)


                                                                                     53%                         60%
       Practitioner
                                                                                      9%                             7%
       State LicensingBoard In-State
                                                                                    <1%                              1%
       State LicensingBoard Out-of-State
                                                                                       9%                        14%
       MalpracticeInsurer In-State
                                                                                       o%                            2%
       MalpracticeInsurer Out-of-State
                                                                                       4%                            5%
       Hospital In-State
                                                                                       2%                            2%
       HospitalOut-of-State
                                                                                     <1%                             1%
        Professional Society In-State
                                                                                        o%                       <1%
        Professional Society Out-of-State
                                                                                        7%                           7%
        Other In-State
                                                                                        o%                            1%
        Other Out-of-State
        Note: Propo~ions will not add to 100% because hospitals could have more than one source of inforwtion.

        Sources: Ofjice of Inspector General Surveys of Hospital @icials.


    The surprising finding from Period A that hospitals seemed more likely to be aware of
    malpractice payments and adverse actions occurring in other States than of payments and
                                                          In period A, hospitals were aware of
    actions in their own States was not true in Period B.


                                                                     6
information contained in 85 percent of reports from other States, but in only 55 percent of
reports from their own States. In period B, hospitals were aware of information contained
in 70 percent of reports from other States and 72 percent of reports from their own States.

�	     In neither period did hospital officials see accuracy of reporting to be a large
       problem.

For period A, we found that no hospital in our sample responded that the Data Bank
report it received was inaccurate. In period B, no hospital determined, after making
additional inquiries, that the information in the Data Bank report was inaccurate.

In our draft report, we had indicated that there was growing evidence that the Data Bank
is not reporting to hospitals all the information it should. We based that on the finding
that in period B 12 hospitals (almost 5 percent of all respondents) indicated that the
responses received from the Data Bank were incomplete (i. e., that the Data Bank should
have had additional information on the practitioner in question). In period A, by contrast,
only one hospital said that the Data Bank response was incomplete.

Upon further inquiry since the issuance of our draft report, we determined that none of
the Data Bank reports cited by the 12 hospitals as being incomplete during period B
remain incomplete today. Moreover, we found that all of the Data Bank reports identified
by the hospitals as incomplete could be explained as errors by the hospital respondents or
as timing issues (wherein a hospital learned of a malpractice payment or disciplinary
actions from another source before it was sent to the Data Bank). We found no instances
of nonreporting to the Data Bank.

�	     The reasons hospital officials found reports useful or not usefi.d remained largely
       unchanged. In both periods, the most commonly cited reason for the reports being
       useful was that they confirmed information from other sources; the most commonly
       cited reason in both periods for the reports not being useful was that they
       duplicated information available elsewhere.

Table 3 demonstrates the differences between period A and period B in the reasons
hospitals considered reports useful and not useful. It is clear that hospitals find the
reports useful in large part because they confirm information available elsewhere. It is
likely that if they found the other sources very reliable and trustworthy, they would not
find the Data Bank information useft.d because it was duplicative.5 The fact that many
find the reports useful because they are confirmatory may indicate that the Data Bank is
filling a need for a reliable source of information. In fact, of the reports that told
hospitals about incidents they were aware of from other sources, 15 percent were
inconsistent with those other sources. Yet, as we already noted, no Data Bank report was
found to be inaccurate upon further inquiry. The Data Bank, while it may provide
information available elsewhere, is a consistently accurate source of information. This
gives us key insights into how hospitals rely upon the Data Bank and why reports are
useful to so many hospitals.



                                              7

�	     (Measured only in period B.) Seventy-seven percent of our respondents felt that
       responses from the Data Bank that listed no adverse information were at least
       somewhat useful to them. Seventy-one percent found it worthwhile to query the
       Data Bank about all practitioners, as the current law requires.

In period B, we asked two questions we did not ask in period A that help assess the
usefulness of the Data Bank. The first asked “How useful to you are responses from the
Data Bank that do not list any adverse information?” (Choices were “extremely useful, ”
“very useful, “ “moderately useful, ” “somewhat usefi.d,” or “not useful.”) Among the
77 percent who answered that the reports were useful, the great majority designated the
“moderately” or “somewhat” useful categories.

The second question we asked was “All things considered, do you feel it is worthwhile to
query the Data Bank about all practitioners in your hospital as current law requires?”
About 71 percent of respondents said yes. Officials felt the information was worthwhile
for all types of queries: that it was confhnatory, that it was a reliable source of
information, that it was a source of information when practitioners failed to notify the
hospital of incidents, and that it was national in scope. Officials who felt it was not
worthwhile to query frequently felt that the expense of time and money was not worth it,
that they can use other sources easily to get the same information, and that there is
incomplete or insufficient information in the Data Bank.




                                            8

                                                          TABLE       3
          REASONS        OFFICIALS         CONSIDERED           REPORTS        USEFUL       AND NOT USEFUL

                                                                            PROPORTION
                                                                                     OFREPORTS
                                                                                             THATHOSPITAL
                                                                                       CONSIDERED
                                                                               OFFICIALS       USEFUL
                                                                                Period A:                       Period B:
                1REASON
                      CONSIDERED
                              USEFUL                                         (9/1/90-3/18/92)               (3/20/92-2/25194)

                                                                           Number of reports                Number of reports
                                                                             considered                        considered
                                                                              useful=83                       usefil =203
Confirmed Other Available Information                                                         60%                        65%
Helped Judge Practitioner’sCompetency                                                          37%                        32%
Provided Information UnavailableElsewhere                                                      30%                        24%
Helped Judge Practitioner’s Professionalism                                                    22%                        25%
Other Reason                                                                                   10%                         6%

                                                                            PROPORTION
                                                                                     OFREPORTS
                                                                                             THATHOSPITAL
                                                                                     DIDNOTCONSIDER
                                                                             OFFICIALS            USEFUL
                                                                                Period A:                       Period B:
               REASONNOTCONSIDERED
                                USEFUL                                       (9/1/90-3/18/92)               (3/20192-2/25/94)

                                                                            Number of reports               Number of reports
                                                                             not considered                  not considered
                                                                               usejid=55                       use@l=40
InformationAvailable Elsewhere                                                                 52%                        75%
Information Did Not Help Judge Competencyor                                                    63%                        45%
Professionalism
Report Not Timely                                                                              54%                        18%
Report Inaccurate                                                                             <1%                          5%
Other Reason                                                                                   19%                        15%
Note: In period A, 58 percent of reports were found usefid and in period B, 83 percent were found usejid.
     Proportions in this table will not add to 100% because hospitals could have more than one reason.

Sources: (@e    of Inspector General Surveys of Hospital 0j7cials.




                                                                 9

IMPACT ON DECISIONS: In both periods, hospitals seldom made different privileging
decisions than they would have made without the Data Bank reports.

The impact that receiving information from the Data Bank has on hospitals can be
characterized in several ways. Impact may include giving hospital administrators
confidence that they have complete information about their medical staffs. It may include
adding information to practitioners’ files that could be used in the future should questions
arise. But Data Bank reports can have their most direct impact by affecting the outcome
of decisions on practitioners who have just applied for new or continued hospital
privileges. For this reason, we asked hospitals (in both periods A and B) the following
question: Would your decision regarding the practitioner have been different if you had
not received the Data Bank report? Because our measurement of impact focused on the
privileges decisions, we did not include in this analysis any situations when decisions were
still pending. In period A, 16 percent of Data Bank reports involved practitioners for
whom the hospitals’ privileging decisions were still pending at the time of our survey; in
period B, this figure was 8 percent.

Figure 2 demonstrates how the proportions of reports that had impact, no potential for
impact, and potential for impact changed over the two periods.

       In period A, according to hospital officials, if hospitals had not received the Data
       Ba& reports, their privileging decisions would have been different 1 percent of the
       time; in period B, this figure was 2 percent.

In period B, of the 236 officials who answered the question, 4 said their decisions would
have been different. One hospital terminated privileges immediately upon receiving the
Data Bank report (which reported a voluntary surrender of privileges while under, or to
avoid, investigation for incompetence, malpractice, or negligence). Another hospital
reported that the practitioner withdrew his application, but it would have denied privileges
based on the report (which reported conditional reinstatement of privileges at another
hospital). A third hospital made a decision to grant temporary privileges prior to
receiving the Data Bank response, but would not have granted them had it known the
information in the response (which described a $50,000 surgery-related malpractice
payment). A fourth hospital temporarily suspended and investigated a physician based on
the Data Bank report (which detailed a $95,000 anesthesia-related malpractice payment);
the hospital eventually granted privileges to the physician.

In period B, we asked a follow-up question about whether the report, if it did not cause
the officials to make a different decision, made the officials feel more confident, less
confident, or no different. Of the 188 respondents, only 7 felt the report made them less
confident and 49 (26 percent) felt the reports made them more confident about their
decisions. In all but two of these cases, the practitioner involved was granted full
privileges. This is, therefore, an unexpected result. One would expect that receiving
adverse information would make decision makers less confident about granting privileges.




                                              10

�      In period A, 80percent ofrepotis hadlitile chance tohavean impact onhospi~ls'
       privileging decisions; inperiod B,thisfigure dropped to75 percent. These reports
       arrived after the decision was made, duplicated available information, or the
       practitioner did not go through the privilege decision process.

In period A, that 80 percent (97 reports) consisted of

       10 reports that named practitioners who did not go through the privilege decision
       process. These practitioners either withdrew their applications or requested only
       temporary privileges.

       46 reports that were not received prior to hospitals making decisions. For
       22 reports, the hospitals did not query the Data Bank until after the decisions and
       for 24 reports, they queried in advance of the decisions.

       41 reports that, though received by hospitals before credentialing decisions were
       made, provided only information already known to the hospitals.

In period B, the 75 percent (176 reports) consisted of

       16 reports that named practitioners who did not go through the privilege decision
       process.

       27 reports that were not received prior to hospitals making decisions.

       133 reports that, though received by hospitals before decisions were made,
       provided only information already known to the hospitals.

In period B, we also asked officials why the reports did not lead them to make privileging
decisions they would not have made without the reports. Of responding officials,
55 percent said at least part of the reason the reports did not have impact was that the
reports did not indicate a problem warranting restricting or denying privileges; 54 percent
cited already knowing about the information as a reason; 8 percent cited not receiving the
report in time to affect the decision, and 3 percent said they would have restricted or
denied privileges anyway.

�       The percent of reports that could have had impact on hospitals’ privileging
        decisions but did not increased from 19 percent (23 reports) in period A to
        24 percent (56 reports) in period B. These are reports that hospitals received
        before they made their privileging decisions and that provided them with new
        information on a practitioner.

In period A, we did not ask officials who responded that the reports did not alter their
credentialing decisions why they did not. However, we analyzed whether or not they
found the reports useful and why. In period A, about half of the reports that arrived
before hospitals’ decisions were finalized and contained information that neither the


                                              11
                                        Figure 2
                    IMPACT OF DATA BANK REPORTS:
               CHANGE FROM PERIOD A TO PERIOD B


                                                           E
                                                           o                              T




                    PERIOD A                                     PERIOD B
                      (n-142)                                         (n-257)



                     Data Perbd A-9/l19CW8/92,      Perfod 6-3/19/92-2/25/94.

                     Sources OffIce of Inspector Wmral Sutveys of Hosp”ti CMcials.

                     Now Period B proportions add up tomore then 100% due to rounding.





practitioner nor any other sources had provided were judged not useful. Most often these
reports were considered not useful because they could not help judge competency or
professionalism. The other half were considered useful. In period B, only 11 percent of
the reports that arrived before hospitals’ decisions were finalized and contained
information that neither the practitioner nor any other sources had provided were judged
not useful. The primary reason these reports were judged not useful was again because
they did not help judge the practitioner’s competency or professionalism.

ln period B, we asked officials who said that their privileging decisions would not have
been different without the Data Bank report why their decisions would not have been
different. Of the reports that arrived prior to the final decisions and that contained
information not available from other sources, officials said 64 percent did not indicate a
problem that warranted restricting or denying privileges. No other reason had a frequency
of more than 4 (7 percent). b One official said that the hospital restricted or denied
privileges anyway.




                                                     12

                             CONCLUSION

The information in this report contributes to an understanding of the usefulness and impact
of the Data Bank in hospitals. It reveals that the Data Bank is operating much more
smoothly than during its early implementation period. Hospital officials are receiving
reports in a much more timely fashion and they are now much more likely to characterize
Data Bank information as useful. At the same time, our data reveal that Data Bank
reports seldom affect privileging decisions of hospitals.

During this and prior inspections on the Data Bank, we have become ever more aware of
differing expectations of the Data Bank. Thus, any assessments of the Data Bank’s
usefulness and impact will depend heavily on how these expectations are expressed and on
the relative emphasis given to them. In that context, we offer the following concluding
observations concerning three important expectations about the Data Bank.

�	     Data Bank as a Reliable, Centralized Source of Information. In the sense that
       the Data Bank is expected to serve as such a source of information about adverse
       actions and medical malpractice payments, it seems to be working quite well. It is
       a timely, accurate source that is widely regarded as useftd--mainly because it
       confh-ms information available from other (presumably less reliable) sources.

�	     Data Bank as a Unique Source of Information. In the sense that the Dab Bank is
       expected to serve as a unique source of information--that is, one unavailable
       elsewhere--it clearly has some value. In our sample, 28 percent of the reports
       provided new information to the hospitals. That 28 percent projects to
       25,040 reports providing new information to hospitals over a period of almost
       2 years7.

�	     Data Bank as a Mechanism to Protect the Public by Preventing Incompetent
       andlor Unprofessional Practitioners from Practicing in Hospitals. Clearly, this is
       the most ambitious and controversial of these expectations. It is also the one most
       difficult to assess without more information. In one sense, the fact that 2 percent
       of reports are having an impact on privileging decisions may seem inappropriately
       low. It may suggest that hospitals are overly reluctant to take adverse actions
       against incompetent and/or unprofessional practitioners.

       Yet, to the extent that only a small percent of practitioners are unfit to practice,
       one may argue that nothing is necessarily inappropriate about 2 percent of reports,
       which projects to 1,520 reports over a period of almost 2 years8, having an impact
       on privileging decisions. These 1,520 reports involve hundreds of practitioners
       and affect thousands of patients served by these practitioners. Finally, it is
       important to recognize that the very existence of the Data Bank may deter some
       unfit practitioners from even applying to hospitals for practice privileges and may
       encourage other practitioners to be more forthcoming in the applications they
       submit for hospital privileges.


                                             13
COMMENTS                       OF       THE         DRAFT              REPORT

We solicited and received comments on the draft report from the Public Health Service
(PHS), the Assistant Secretary for Planning and Evaluation (ASPE), the American
Hospital Association (AHA), and the American Medical Association (AMA). We include
the complete text of their comments in appendix C. Below we summarize the comments
of the respondents and, in italics, offer our responses.

PHS COMMENTS

The PHS noted our efforts in working cooperatively with the staff in the Health Resources
and Services Administration and indicated that the report “will be helpful in administering
the program. ” It called for one minor change in the background section of the report
where we explain the Data Bank law.

We appreciate the positive response from PHS. We made the change requested.

ASPE COMMENTS

The ASPE commented that the purpose of our inquiry was “commendable” and that the
survey methodology seemed “appropriate.” It added, however, that the conclusions we
drew “are a matter of interpretation and that the findings of the report could be used to
support conclusions other than those supported by the OIG. ” It recommended that we
discuss why we conclude that the Data Bank is useful when some evidence in the report
might be used to reach a contrary conclusion.

We did not draw the conclusion, as ASPE stated, that the Data Bank is usefil. In our

concluding section, we pointed out that the data in the report contribute to an

understanding of the usefulness and impact of the Data Bank. We indicated that

assessments of useji.dness and impact will depend heavily on one’s expectations of the Data

Bank and the relative emphasis given to them. We then offered some pertinent

observations concerning each of three sets of expectations.


AHA COMMENTS

The AHA indicated that it was “encouraging” that hospitals found Data Bank reports to be
more useful and timely than during our prior survey period. However, it raised concern
that the proportion of reports providing information previously unknown to hospitals has
declined. In elaborating on that concern, it suggested that the supplemental role of the
Data Bank in hospital credentialing and privileging efforts may come at “too high a
price. ” It asked: “. . .is the confirmatory information worth the significant administrative
and financial burdens the Data Bank imposes on hospitals and other Data Bank users?”

We hope that the survey data we provided on use@lness and impact will help readers
answer that question for themselves. As we noted in our concluding section, one’s


                                              14
assessment of the value of the Data Bank will depend largely on one’s expectations of it in
the jirst place. Further, on the mutter of the declining propotiion of Data Bank reports
providing new information to the hospitals, we think it is quite possible, as we noted in the
report, that the practitioners’ increased awareness of the Data Bank may well make them
more likely to disclose any malpractice payments or adverse actions concerning themselves
before the hospital gets the information from the Data Bank. Thus, it is not just that the
Data Bank provides “confirmatory” information as xlHA noted, but that it may also serve
as a trigger for information that may not otherwise reach the hospitals.

AMA COMMENTS

The AMA, like the AHA, raised concerns about the cost effectiveness of the Data Bank.
But it also raised a number of specific concerns about our report.

It’s core concern with our report (as with our parallel prior report of February 1993) is
that it focuses on the universe of matches rather than queries. In so doing, the AMA
indicated, we end up offering misleading conclusions about usefulness and impact because
matches represent only about 4 percent of all hospital queries to the Data Bank. Along
this line, the AMA called for us to include information in the report on the number of
queries. It specifically noted that our statement that “as of February 25, 1994, hospitals
had received in response to queries, 108,552 reports of malpractice and adverse actions”
was incorrect. It added “that the word ‘matched’ must be inserted between ‘108,552’ and
‘reports’ to reinforce the fact that this report is only looking at approximately 4.4 percent
of the universe of queries. ”

The AMA added that in our report we attempted to justi~ the low match rate and the low
impact on credentialing. It said that we did this by reporting that 77 percent of the
respondents found that Data Bank reports with no adverse information on a practitioner
were at least somewhat useful to them and that 71 percent found it worthwhile to query
the Data Bank for all practitioners as the law requires. It commented that the former
statistic “may have been predictable because the Likert scale was skewed in favor of
providing a positive response” and the latter because it simply elicited a yes or no
response. Forty-two percent of those who explained their response, it said, offered
critical judgments of the Data Bank.

In addition, the AMA commented that (1) our report would be strengthened if we
analyzed matched reports on the basis of the reason hospitals queried the Data Bank and
(2) our draft report gave insufficient attention to the finding that 5 percent of hospitals
found that the Data Bank match reports provided them were incomplete. This significant
finding, the AMA said, should be included in the executive summary of our report and
should be addressed immediately by PHS.

In 1992, when we jirst began our inquiries about the Data Bank, we decided, afier
consultation with various parties, to focus on the usejidness and impact of the information
in the Data Bank, as opposed to the overall utility of the Data Bank. We determined that
such a focus would provide more discrete and practical information about what the Data


                                              15
Bank actually produces and in so doing could contribute to broader assessments of the
Data Bank. We repeated that approach for this report 10 allow for comparative
assessments of the usefulness and impact of Data Bank reports over time. We disagree
with the xlM4 over the value of this approach.

In response to concerns expressed by MA and some others about our prior inquiry
 (concerning period A), we added the following questions this time: (1) “How usefid to you
are responses that do not list any adverse information?” and (2) “All things considered,
do you feel it is worthwhile to query the Data Bank about all practitioners in your hospital
as current law requires?” We believe the answers to these questions o~er usejid
perspectives of key respondents on the overall utiliy of the Data Bank. To MIA’s critique
that the results we report on the first question may overstate the positive by reporting that
77percent of the respondents found the information “at least somewhat use@l, “we note
that total includes 26 percent who regarded it as “extremely or very usefil” and
27percent as “moderately usefid. “ To AMA’s critique that the results of the second are
predictable because of the yes-no response format, we respond thut the simple format was
an unbiased one allowing for the respondent to express a basically positive or negative
response.

In response to the MA’s suggestion, we did clarl~ in our background section that the
Data Bank reports we refer to are “matched” repotis. However, we did not provide
additional information as the M     requested. In an August report entitled, “National
Practitioner Data Bank: Profile of Matches Update (OEI-01-94-00031), “we offer
extensive data that provide considerable perspective on Data Bank matches.

We agreed with the AMA that if 5 percent of the reports to the Data Bank were, in fact,
incomplete, that would be a sigrdjlcant matter warranting immediate attention. For that
reason, we conducted a follow-up inquiry and as we pointed out on page 7, all of the
reports cited by hospital respondents as “incomplete” turned out to be explainable as
timing issues or as respondent errors. None involved actual nonrepotiing to the Data
Bank.

Additional analysis, as MA called for, on the reasons for hospitals querying the Data
Bank could be of some value, but goes beyond what we can undertake at this time.




                                              16

                              APPENDIX                   A

                                  METHODOLOGY


For a summary of our methodology for the initial study period @eriod A--9/l/9O through
3/19/92), see Appendix A of our report entitled “National Practitioner Data Bank:
Use@lness and Impact of Repotis to Hospitals” (February 1993).

We collected the data presented in this report for period B (March 20, 1992 through
February 25, 1994) through a mail survey of hospitals conducted from May to July 1994.
We drew our sample from the universe of all Data Bank matches involving hospitals
between March 20, 1992 and February 25, 1994. A match is a pairing of a report and a
query to the Data Bank that name the same practitioner. We requested and received a
computer file containing records of all Data Bank queries and reports that identified the
same practitioner. We restructured and analyzed the data using SAS@Release 6.08 on a
mainframe computer and Version 6.04 of the SAS@System for Personal Computers.

We drew a simple random sample of 400 matches from the universe of 89,430 matches.
This differs from the sampling methodology we used in period A, which involved a
stratified random sample of 200 matches. We increased the sample size to lend more
credibility to our findings and to tighten contldence intervals. We choose not to stratify
the sample because we did find significant differences on any key measure by the
stratification variable (type of report).

In May 1994, we mailed a questionnaire about each report to the hospital involved. There
were 372 hospitals that received questionnaires; 22 hospitals were each sent questions on
2 different practitioners (1 of those hospitals received a total of 3 questionnaires--1 for
1 practitioner and 2 for different matches for another practitioner); 1 was sent
questionnaires on 3 different practitioners, and 1 was sent questiomaires on 4 different
practitioners. We followed this with a second mailing to nonrespondents. All responses
used in the analysis were received by July 20, 1994. Appendix B shows the questionnaire
and simple frequencies.

Questionnaires were addressed to the person whose name appeared on the original query
to the Data Bank. Most respondents held the position of medical staff coordinator or the
equivalent. A few respondents were the chief executive officers of their hospitals.

Our response rate was 64 percent. Most of the responses (89.5 percent) concerned
malpractice reports; 10.5 percent concerned adverse action reports. Overall, malpractice
matches accounted for 89 percent of the universe of matches, so the distribution of report
types in our response was as expected.

Sixty-nine percent of the respondents queried the Data Bank because of mandatory



                                            A-1

two-year review requirements, 29 percent queried on initial privileging or employment
applications, and 2 percent queried for professional review purposes. Of the 27 responses
based on adverse actions, 63 percent were State licensing board actions and 47 percent
were hospital clinical privileges actions, Ninety-three percent of the respondents queried
about physicians (the other practitioners were dentists, podiatrists, and nurse anesthetists. )
The specialties of the physicians are listed in table A.

There were 248 hospitals represented in the responses. Of the 22 hospitals that had been
sent questionnaires about 2 practitioners, 10 responded, but 1 responded to only
1 questionnaire and the 1 that had received 3 questionnaires (2 for 1 practitioner) returned
2 questionnaires (1 for each practitioner). Of the 2 hospitals that had been sent
questionnaires about more than 2 practitioners, neither returned any questionnaires.

Unless otherwise noted, survey results presented as percentages have a margin of error of
approximately 5 percent at the 95 percent confidence level. Confidence intervals for
statistics cited for period B in the body of the report are summarized in table B.




                                             A-2

                                            TABLE    A
                                  TYPES    OF PRACTITIONER

                                  NUMBER OF MATCHES                    PERCENTAGEOF MATCHES
TE OF PRACTITIONER
                                                                257                        100.0
)TAL
                                                                239                            92.6
IYSICIANS                                                                            4.-
                                                                                     11.   /
      Obstetrics and Gynecology
                           30
                                                           29                        11.2
      General Surgery
                                                                8.6
      Family Medicine
                                     22
                                                           21                         8.3
      Orthopedic Medicine
                                                            6.6
      Internal Medicine
                                   17
                                                           10                         3.9
      Missing
                                                                        3.5
      Emergency Medicine
                                   9
                                                            9                         3.5
      Neurological Surgery
                                                           3.5
      Eye, Ear, Nose, and Throat
                           9
                                                            9                         3.5
       Plastic Surgery
                                                               3.1
       Urology
                                             8
                                                            7                          2.7
       General Medicine
                                                               2.7
       Anesthesiology
                                      7
                                                             6                         2.3
       Ophthalmology
                                                                  1.9
       Cardiology
                                           5
                                                             4                         1.6
       Pulmonary Medicine
                                                              1.6
       Psychiatry
                                           4
                                                             3                          1.2
        Oncology
                                                                       1.2
        Gastroenterology
                                    3
                                                             3                          1.2
        Osteopathic Gynecology
                                                         1.2
        Radiology
                                            3
                                                              2                         0.8
        Cardiac Surgery
                                                                0.8
        Dermatology
                                          2
                                                              1                         0.4
        Thoracic Surgery
                                                               0.4
        Occupational Medicine
                                1
                                                              1                         0.4
        Radiotherapy
                                                                   (-).4
                                                                                         ---
        Pathology
                                             11                                     —

                                                                      11                          4.3
DENTISTS and ORAL
SURGEONS
                                                                       7                          2.7
PODIATRISTS
                                                                       1                          0.4
NURSE ANESTHETISTS
Source: (?ftice   of InspectorGeneralSurveyof HospitalOf@als, May - July 1994
                                                                                                          I




                                                    A-3

                                                              TABLE   B
                               CONFIDENCE            INTERVALS        FOR KEY    STATISTICS

Description                                                       Page     Value	             95 Percent Confidence
                                                                                              Interval
                                                                                              (+ or-)

Proportion of reuorts considered useful                           3        83.2 percent       4.7 percent

Proportion of respondents rating licensing board actions          3        69.6 percent       5.8 percent
extremely useful

Proportion of respondents rating hospital actions extremely       3        68.3 percent       5.8 percent
useful

Proportion of respondents rating malpractice payments             3        39.8 percent       6.1 percent
extremely useful

Proportion of reports that provided information previously        4        28.0 percent       5.6 percent
unknown

Proportion of time learned of board actions from sources          5        33.3 percent       26.7 percent
other than boarrl

Proportion of reports on board actions that provided              5        8.3 percent        15.6 percent
information previously unknown

Proportion of reports on hospiral actions that provided           5        50.0 percent       30.1 percent
information previously unknown

Proportion of reports from other States hospitals were aware      5        69.7 percent       9.1 percent
of

Proportion of reports from own States hospitaIs were aware of     5        71.6 percent       7.3 percent

Proportion of respondents indicating report was incomplete        6        4.7 percent        2.6 percent

Proportion of respondents using electronic query.                 6        25.6 percent       5.6 percent

Proportion of reports that used electronic query and were         6        81.7 percent       9.8 percent
found usetid

Proportion of reports that did not use electronic query and       6        83.5 percent       5.6 percent
were found usefil

Proportion of reports that arrived prior to tlmal decision        7        83.2 percent       5.4 percent

Proportion of reports that were not “on-time” because of a        7        5.8 percent        2.9 percent
late query

Proportion of reports that told hospitals about information       7        14.5 percent       5.4 percent
they were aware of and was not consistent with it

Proportion of respondents who find it worthwhile to query for     7        71.1 percent       5.8 percent
all practitioners

Proportion of respondents who find reports that do not list       7        47.2 percent       6.2 percent
adverse information somewhat or not useful

Proportion of respondents who fmd reports that do not list        7        26.0 percent       5.4 percent
adverse information extremely or very useful

Proportion of respondents who find reports that do not list       7        26.8 percent       5.5 percent
adverse information moderately useful

Proportion of reports with decisions pending                      9        7.8 percent        3.3 percent

Propordon of reports that made a difference in a decision         9        1.7 percent        1.6 percent



                                                                A-4
                                                             TABLE       B
                              CONFIDENCE               INTERVALS         FOR KEY       STATISTICS

Description                                                        Page       Value	                95 Percent Cotildence
                                                                                                    Interval
                                                                                                    (+ or -)

Proportion ofreports that made respondent more cotildent            9         26.1 percent          6.3 percent
about a decision

Proportion of reports that had little chance of impact              10        74.6 percent          5.6 percent

Proportion of reports that practitioner did not go through          10        6,8 percent           3.2 percent
credentialing process

Proportion of reports not received prior to decision                10        11.4 percent          4.1 percent

Proportion of reports provided information already know             10        56.4 percent          6.3 percent
(though received “on-time”)

Proportion of reports where respondents said at least part of       10        55.8 percent          6.5 percent
the reason for no impact was that the reports did not warrant
restricting or denying privileges

Proportion of reports where respondents said at least part of       10        54.7 percent          6.5 percent
the reason for no impact was that the reports gave them
inforrnationthey afready were aware of

Proportion of reports where respondents said at least part of       10        7.6 percent           3.5 percent
the reason for no impact was that the reports did not arrive in
time

Proportion of reports where respondents said at least part of       10        3.1 percent           2.3 percent
the reason for no impact was that they denied or restricted
privileges anyway

Propordon of reporls that could have had impact but did not         10        23.7 percent          5.4 percent

Proportion of reports that could have had impact and were           11        12.0 percent          9.0 percent
judged not useful

Proportion of reports that could have had impact and yet did        11        76.6 percent          12.1 percent
not indicate a problem warranting a change in privileges




                                                                  A-5

              APPENDIX          B



SUMMARY OF HOSPITALS’ RESPONSES TO OIG MAIL SURVEY




                        B-1
      U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

                                  USE AND UTILITY OF THE

                             NATIONAL PRACTITIONER DATA BANK


NOTE: The first 33 questions in this survey concern the case of PractitionerA, whose identity is given on the
last page of this questionnaire. Unless otherwise specified, please confine your responses to your knowledge
of the particular practitioner and event referred to on that page.


                            BASIC FACTS AND CHRONOLOGY

  1        What is Practitioner A’s specialty? 31 d~ferent specialtiesrepresented                       1

  2        On what date did Practitioner A sign an application                                          2
           requesting    privileges (either new or continued) at your          m“de range of   dates
           hospital?
  3        On what date did you request information about                                               3
           Practitioner A from the National Practitioner Data                  un”derange of   dates
           Bank?
  4        Did you request information about Practitioner A                    Yes:61                   4
           using electronic querying methods (QPRAC)?                          No: 177
                                                                               Missing: 19


  5        On what date did you receive a response from the                                             5
           Dab   Bank?     (Write     “~”   ~YOU   have   not   Yet ‘eceived   ~w-de
                                                                                  ~adrange of dates a
                                                                                      not re~eiyed
           a response.)                                                        response yet

  6        On what date did the hospital board make its initial                wide range of dates      6
           decision regarding Practitioner A’s privileges? write               ~e~~~~dfifl
           “PENDING” if board’s initial decision has not yet
           been made, then skip to 16.)
  7        (If YOU made your decision about Practitioner A prior               15 queried after         7
           to receiving information from the Data Bank.) Why                   having made a
                                                                               decision
           did you make your decision about Practitioner A’s
           privileges prior to receiving information in response to
           the request?
       a                            The response took too long to arrive.      yes: 0                       a


      b          We had sufficient information already to make the             Yes:12                       b
                                                          decision.
       c        This request was made outside of our credentialing              Yes:4                       c
           process. It was made for the following reason:




                         NATIONALPRACTITIONER
                                            DATABANKQUESTIONNAIRE
                                                                -- PAGE2
      d       When wehave received adverse information from the                Yes:l                      d
                              Data Bank, ithasnot beenusefil.
      e        We rarely receive adverse information in response to            yes:s                      e

                                                          a request.
      f                       The Data Bank responses are not used in our      yes: 0                     f
                                              credentialing process at all.
      g        Other (EXPLAIN: ~                                               ‘es: 0                     g
8             Was the hospital board’s initial decision a temporary            Yes: 8                8
              one pending fi.uther information?                                No: 192
                                                                               Missing: 57


9             (Sk@ if YOUanswered NO to 7)                                     wide range of dates   9
              On what date did the hospital make its final decision            no final decisions
                                                                               were pending
              regarding Practitioner A’s privileges? (Write
               “PENDING” if board’s jinal decision has not yet been
              made, then answer 10 through 15 with respect to the
              board’s initial decision.)
10            Were privileges granted to Practitioner A as requested           ~oS:~~                10
              by Practitioner A?
                                                                               Missing or N/A: 44

11            (Skip if you answered XES to 10)                                 Yes:5                 11
              Were Practitioner A’s privileges denied (for initial             No: 6
                                                                               Missing or NJ’A:246
              application) or revoked (for renewal application)?
12	           (Skip if you answered YES to 10 or 11)                            Yes: 3               12
              Were Practitioner A’s privileges restricted or amended           ‘0:3
                                                                               Missing or N/A: 251
              in any way?
13	            (Skip    if   you answered YES to 10 or 11 or NO to 12)                               13
              In what way were Practitioner         A’s privileges restricted or amended?
          a                  All privileges suspended (IF YES, FOR HOW          yes: O                        a

                        LONG?~

          b                             May not perform certain procedures      Yes:O                         b

          c            May perform certain procedures only with another         yes: I                        c
                                                            practitioner
          d                                      May co-admit patients only     Yes:O                         d

          e                    Mandatory consultation for certain conditions    yes: 0                        e

          f                   Mandatory review before patient admission or      Yes:O                         f
                                                                 discharge
          g              Proctor assigned to review Practitioner A’s work       yes: O                        g


                               NATIONAL PRACTITIONER DATA BANK QUESTIONiVAIM    -- PAGE 3
                                                                               Yes:2                         h
      h           Other (IF YES, SPECIFY:
                                                                       )
                                                                               Yes: 2                  14

14            (Skip if you answered YES to 10 or 11 or NO to 12)               No:2

              Were these restrictions on Practitioner A’s privileges           Missingor   N/A: 253

              in place prior to the application?
                                                                                   (Check one)         15
15            (Skip if you answered YES to 10 or 11 or NO to 12)
              Which of the following best describes the restrictions
              applied to Practitioner A’s privileges?
                                                                                           o                     a
          a          Routine (e. g., procedure(s) not approved at this
                    hospital, restriction applied to all new hires, etc.)
                                                                                           2                     b
          b        Specific to Practitioner A (e. g., applied because of
                        particular event(s) in Practitioner A’s histo~)
                                                                                Yes: 13                 16
 16           Were any other actions taken with regard to                       No: 224

              Practitioner A’s employment, privileges, or                       Missing or N/A: 20

              credentials (e. g., education requirements, drug testing,
              etc.)?
              (IF YES, EXPLAIN:
                                                                           )




                           NATIONZ4L PRACT~IONER   DATA BANK QUESTIONNA~           -- PAGE 4
                     AVAILABILITY        AND ACCURACY OF INFORMATION

117               Were you aware, from sources other tian tie Data              Yes:175              17
                                                                                No: 72
                  Bank, of theadverse action or malpractice payment
                                                                                Missing or N/A: 10
                  mentioned on the last page of this form?
18	                                                                                                  18
                  (Sk@ if you answered NO to 17)
                  From which of the following sources were you aware of the adverse
                  action or malpractice payment?
      a                                        Practitioner   A (self-report)   ~os:~~                    a
                                                                                   .“
                                                                                N/A: 72
                                                                                Missing: 3

      b                                     Licensing board in your state       yes: 17                   b
                                                                                No: 154
                                                                                N/A: 72
                                                                                Missing: 4

      c                                   Licensing board in another state      yes:3                     c
                                                                                No: 168
                                                                                N/A: 72
                                                                                Missing: 4

      d                                  Malpractice insurer in your state       yes:35                   d
                                                                                 No: 136
                                                                                 N/A: 72
                                                                                 Missing: 4

      e                                Malpractice insurer in another state      yes:4                        e
                                                                                 No: 167
                                                                                 N/A: 72
                                                                                 Missing: 4

          f                                    Other hospital in your state      yes: 13                      f
                                                                                 No: 158
                                                                                 N/A: 72
                                                                                 Missing: 4

          g                                        Hospital in another state     yes:5                        g
                                                                                 No:166
                                                                                 N/A: 72
                                                                                 Missing: 4

          h                               Professional society in your state      Yes:z                       h
                                                                                  No: 169
                                                                                  N/A: 72
                                                                                  Missing: 4

              i                        Professional society in another state      yes:Z                           i
                                                                                  No: 170
                                                                                  N/A: 72
                                                                                  Missing: 4




                             NATION~   PRACTITIONER DATA BANK QUESTIONNAIRE -- PAGE 5
                                                                                                          j
      j                                    Other source in your state Yes.’16
                                                (IF YES, SPECIFY: ~A1~
                                                                     ) Missing:    5
                                                                                                               1

                                                                                                          k
      k                                  Other source in another state    yes: 3
                                                 (IF YES, SpECIFy:        ~A~;
                                                                      )   M&g:     7

                                                                          Yes: 24                   19

19        (Skip if you answered NO to 17)                                 No: 142

          Was the information you received in the Data Bark               Missing or N/A: 91

          response inconsistent in any way with the information
          reported by any of the above sources?
          (IF YES, WHICH SOURCES?
                                                                )
                                                                           Yes: 48                  20

20            Did you make additional inquiries (for example, to a         No: 197

              malpractice insurer or another hospital) to confirm the      Missing or N/A: 12

              accuracy of the Data Bank response or to obtain more
              detailed information on its content?
                                                                           Yes: 40                   21

 21           (Skip if you anwered NO to 20)                               No: O
              Did your additional inquiries show the Data Bark             Missing or N/A: 217
              response to be accurate?
              (IF NO, EXPLAIN:
                                                        \
                                                          J


 NOTE: Questions22-25 refer to the entire Data Bank response, not just to the report attachedto this
 questionnaire. Therefore, if you receivedmore than one report from the Data Bank on Practitioner A,
 please consider them all in answeringQuestions22-25.
                                                                            Yes:20                  22
 22      Were you aware of any disciplinary actions, or                     No: 228
         malpractice payments involving Practitioner A that                 Missing or N/A: 9
               were —
                    not contained in the response from the Dati
               Bank?
                                                                                                          23
     23         (Skip  you anwered NO to 22)
                        if
               How many disciplinary actions and malpractice payments were you aware
               of that were ~t contained in the response from the Data Bati?
                                                                                                                   a
          a                               Number of disciplinary actions     I rew.    aware of I
                                                                             2 aware of 3
                                                                             1 aware of 4
                                                                                                                   b
          b                             Number of malpractice PaYments ~~~~rea~fl ‘f 1

 1
                                                                           1 aware of 3
                                                                              1 aware of 7
                                                                              1 aware of 11


                             NATIONAL PRACTITIONER DATA BANK QUESTIONNAIW     -- PAGE 6
24	       (Skip if you answered NO to 22)                                                24

          How many of these disciplinary actions and malpractice payments
          occurred @ September 1, 1990?
      a                          Number of disciplinary actions      ~ w.     aWWeof ~        a
                                                                     1 aware of 2

      b                        Number of malpractice payments        d w“ awareOf~            b
                                                                     4 aware of 2
                                                                     1 aware of 5

25	       (Skip if you answered NO to 22)                                                25

          Which of the following sources provided information about disciplinary
          actions or malpractice payments that were n- contained in the response
          from the Data Bank?
                                                                                              a
      a                               Practitioner A (self-report)   y“S’18
      b                            Licensing board in your state     yes: ~                   b

      c                         Licensing board in another state     y~~:~                    c

      d                         Malpractice insurer in your state    yes:3                    d

      e                      Malpractice insurer in another state    yes: ~                   e

      f                              Other hospital in your state    Yes:5                    f

      g                                 Hospital in another state    Ye’:~                    g

      h                         Professional society in your state   Yes:~                    h

      i                      Professional society in another state   yes: ~                   i


      j                                Other source in your state    Yes:3                    j
                                            (IF YES, SPECIFY:
                                                                 )
      k                             Other source in another state    Ye’:~                    k
                                            (IF YES, SPECIFY:
                                                                 )




                    NATIONAL PRACTITIONER DATA BANK QUESTIONNAIRE -- PAGE 7
                       CONSIDERATION           OF INFORMATION

26	       Based on the notes in Practitioner A’s file and your personal knowledge         26
          of Practitioner A’s application, which of the following people or groups
          had access to and used the response from the Data Bank in making a
          decision regarding Practitione~ A’s application?
      a                                         Department chair     Yes: 183                  a
                                                                     NO:  60
                                                                     Missing or N/A: 14

      b                                    Chief of medical staff    Yes: 148                  b
                                                                     No: 95
                                                                     Missing or N/A: 14

      c      Hospital administration (CEO, Vice President, etc.)     Yes: 139                  c
                                                                     No: 104
                                                                     Missing or N/A: 14

      d                                    Credentials committee     Yes: 192                  c1
                                                                     No: 48
                                                                     Missing or N/A: 17

      e                        Medical staff executive committee     Yes: 164                  e
                                                                     No: 78
                                                                     Missing or N/A: 15

      f                              Hospital board subcommittee     Yes: 71                   f
                                                                     No: 162
                                                                     Missing or N/A: 24

      g                                        Full hospital board   Yes: 138                  ~
                                                                     No: 104
                                                                     Missing or N/A: 15




                     NATIONAL PRACTITIONER DATA BANK QUESTIONNAIRE -- PAGE 8
                                     UTILITY OF INFORMATION


27                Including the report on the last page, how many Data            Range from 1 to            27
                  Bank reports on Practitioner A did YOUreceive in to~l           ~~~~s~ =$
                  from this request?                                              missin’g or NA, 89

                                                                                  had multiple reports.

                                                                                  Ave: 2.98 repo?ts


28                (Skip if you answered “1”to 27)                                 Yes: 71                    28

                  Overall, was the information contained in the                   No: 12

                                                                                  Missing or N/A: 174

                  complete Data Bank response (i. e., all reports
                  combined) useful to you?
                                                          IF YES, WHY?              (Check all that apply)

      a                            Information was unavailable elsewhere          Yes:   21                        a


      b                    Information confirmed other reports that were          Yes:   49                        b
                                                     available elsewhere
      c
                     Information helped us to judge practitioner’s        Yes: 25                          c
                                                             competency
      d                      Information helped us to judge practitioner’s         Yes: 15                         d
                                                          professionalism
      e
            Other (EXPLAIN:                                                Yes: 2                          e
                                                                          )
                                                     IF NO, WHY NOT?                (Check all that apply)

      f                               Information was available elsewhere          Yes: 13                         f

      g                                        Information was inaccurate          Yes: 1                          g

      h                 Information did not help us to judge practitioner’s        Yes: 8                          h
                                           competency or professionalism
          i              Information was not provided in a timely manner           Yes: 2                              i

          i         Other (EXPLAIN:                                           )    Yes: 4                              j

 29                (Skip if you answered “1”to 27)                                 Yes: 2                     29
                   Would your decision regarding Practitioner A have               No: 84
                                                                                   Missing or N/A: 171
                   been different if you had D@received the reports from
                   the Data Bank?
                                         IF YES, HOW (then skip to 31)?                     (Check one)

          a                       Would have granted requested privileges           Yes: O                             a

          b                   Would not have granted requested privileges           Yes: 1                             b

              c                            Would have restricted privileges         Yes: 1                             c

          d                            Would not have restricted privileges         Yes: O                             d


                             NATIONAL PRACTITIONER DATA BANK QUES7TONNAW            -- PAGE 9
                                                                                                                         e


>               Other (EXPLAIN: ~                                                  “s: 0
                                                                                    (Check all that aPPIY)
                                                     IF NO, WHY NOT?
                                                                                                                         fl
f                     Would have restricted or denied privileges anyway            ““:2
                                                                                                                         g
g                   Already knew, from other sources, about information            yes:51
                                       reported in Data Bank responses
                                                                                                                         h
h                    Data Bank responses did not indicate a problem that           yes:42
                              warranted restricting or denying privileges
                                                                                                                          i
    i               Did not receive Data Bank responses in time	 to affect
                                                                 decision          ‘es: 3
                                                                                                                          J
    j               Other (EXPLAIN: ~                                               “s’2
                                                                                                                    30
                    (Skip if you answered “YES” to 29)
                Did the reports you received make you feel more

                                                                                           (Check one)

                cotildent, less confident, or no different about the
                    decision you made regarding Practitioner A?

                                                                       Missing                  180
                                                                                                   25
        a                                                      More confident
                                                                                                   2                          1
                                                               LZSS   cotildent
        b
                                                                                                   48                         (
                                                                  NO different
        c
                                                                                     yes: 203                        31
                    Overall, was the information contained in the Data               No: 40
                    Bank report on the last page useful to you?                      yes and No: 1
                                                                                     Missing or N/A: 13

                                                                                       (Check all tit   aPPIY)
                                                               IF YES, WHY?
                                                                                                                                  ~
            a                        Information was unavailable elsewhere            Yes:51
                                                                                                                                  1
            b                 Information confirmed other reports that were           Y’S:132
                                                        available elsewhere

            c                  Information helped us to judge practitioner’s          Y’S:64
                                                               competency

            d                   Information helped us to judge practitioner’s          yes: 50
                                                             professionalism

                e      Other (EXPLMN: ~                                                ‘es: 12
                                                                                           (Check all that RPPIY)
                                                          IF NO, WHY NOT?
                                                                                                                                      f
                f                         Information was available elsewhere             yes:30
                                                                                                                                      g
                c                            woulm’’z?iz$~~a           j!i%fkri~          ~    ~
                                                                                                                                      d
                d                         Would not have restricted privileges            Y’S:O

                                NATION&   PRACT~IONER    DATA BANK QUESflONNA~            -- PAGE 9
                                                                                                                   h
h                  Information did not help us to judge practitioner’s        yes: 18
                                      competency or professionalism
                                                                                                                    1

                                                                                  Yes: 7
i                   Information was not provided in a timely manner                                                         II


                                                                                  yes: 6                            j
                                                                   )
j               Other (EXPLAIN:
                                                                                  Yes: 5                     32

            Would your decision regarding Practitioner A’s                        No: 227


            privileges have been different if you had n~ received                 Missing or N/A: 25

            the report on the last page from the Data Bank?
                                                    IF YES, HOW?
                                                                                                                        a
                                                                                  Yes: 2
    a                        Would have granted requested privileges
                                                                                                                       b
                                                                                   Yes: 2
    b                    Would not have granted requested privileges
                                                                                                                        c
                                                                                   Yes: 1
    c                                 Would have restricted privileges
                                                                                   Yes: O                               d
    d                             Would not have restricted privileges
                                                                                                                        d
                                                                          )        Yes:2
    e            Other (EXPLMN:
                                                                                     (Check all that WPIY)
                                                   IF NO, WHY NOT?
                                                                                                                            I
                                                                                    Yes: 7
                    Would have restricted or denied privileges anyway
                                                                                    Yes: 122                                f
                 Already knew, from other sources, about information
                                     reported in Data Bank response
                                                                                    Yes: 125                                1
                    Data Bank response did not indicate a problem that
                            warranted restricting or denying privileges
        i          Did not receive Data Bank response in time	 to affect            yes: 17
                                                               decision
                                                                              )      Yes: 10
        j         Other (EXPLAIN:
                                                                                                                   33
3                (Skip if you answered “=S” to 32)
                 Did the reports you received make you feel more
                                                                                             (Check one)
                 confident, less confident, or no different about the
                 decision You made regarding Practitioner A?
                                                                  Missing                        67

                                                                                                 49                             a
            a                                             More     confident
                                                                                                  7                             k
                                                           uss     confident
            b
                                                                                                 132                            c
                                                                 NO different                                                       J
            c




                            NATIONZ4L PRACT~ONER   DATA BANK QUESTIONNAIRE -- PAGE 11
NOTE: The remaining questions do not concern the specific case of Practitioner
A, but rather your general experience with and attitudes about the Data Bank.

                      GENERAL QUESTIONS ON THE

                   NATIONAL PRACTITIONER DATA BANK


34	       How, if at all, have the other parts of your credentialing procedures been                         34
          affected by the availability of the Data Bank?

          25 respondents   discussed how the process is more costly or has been delayed by the Data
          Bank, 24 discussed how hiring or granting of privileges now is dependent upon first
          receiving the Data Bank response, 22 discussed how the Data Bank que?y is required for
          all applicants, and 22 discussed how the Data Bank is used to verify information on
          practitioner’s applicah”on. A host of other changes were mentioned by other respondents.

35	       Please rate the following four types of information maintained in the Data                         35
          Bank in terms of their usefulness to you--in practice or in theory--in the
          practitioner credentialing process. (Let 1 = extremely useful and
          4 = not at all useful.)
      a          Hospital disciplinary actions/privilege restrictions               ~TING:                        a
                                                                                    Mean: 1.53
                                                                                    S. D.: 0.89

      b                                              Licensing board actions        ~TzNG:                        b
                                                                                    Mean: 1.53
                                                                                    S. D.: 0.92


      c                                                Malpractice payments          ~TING:                       c
                                                                                    Mean:   2.00
                                                                                     S.D.: 0.99
      d                        Professional society disciplinary actions             ~TzNG:                       d
                                                                                     Mean: 2.25
                                                                                     S. D.: 1.18

36        How useful to you are responses from the Data Bank                             (Check one)         36
          that do not list any adverse information?
                                                                        Missing                6
      a                                                                                       28                  a
                                                             Extremely useful
      b                                                            Very useful                37                  b

      c                                                     Moderately useful                 67                  c

      d                                                      Somewhat useful                  60                  d
      e                                                              Not useful               58                  e


             Please explain:         22 explained   that it confirms information provided by other sources
                     ijositive);   7 felt the Data Bank was incomplete or had insuf~cient informatt”on.


                      NATIONAL PRACTITIONER DATA BANK QUESTIONNAIRE -- PAGE 12
 37    All things considered, do you feel it is worthwhile to              Yes: 170                 37
                                                                           No:   69
       query the Data Bank about all practitioners in your                 Missing: 18
       hospital as current law requires?
            Please explain: 25felt    it was usejid because it provided useful documentti”on for
                        credentialing or priw”leg”ng; 18 felt it was not worth the tz”meor money.

 38	   What kind of information ~        currently maintained by the Data Bank                      38
       would be useful to you?

 39	   Please list any additional comments and suggestions you have about the                       39
       operation of the National Practitioner Data Bank.




This is the end of the survey. Thank you for taking the time to complete it. Please return
your completed survey in the business-reply envelope to:

       Office of Evaluation and Inspections

       Office of Inspector General

       U.S. Department of Health and Human Services

       Room 2475, J.F.K. Federal Building

       Boston, MA 02203


If yOUhave questions, please call David Veroff or Barry McCoy at 617-565-1050.




                  NATIONAL PRACT~ONER       DATA BANK QUESTIONNAIRE -- PAGE 13
        APPENDIX         C



COMPLETE COMMENTS ON THE DRAFT REPORT




                 c-1
       ‘S-U*, ~




      4<
  /“
 .“
                +
.                    DEPARTMENT        OF HEALTH & IIIJhlW            SERVICES                     Public He.akh Suvica
3
 9
  ‘%,
   %,,,
                                                                                                   Memorandum
                      FEB2fm
          OfIte
          hom       Assistant         Secretary          for     Health



          subject
 Office        of   Inspector   General  (OIG)                Draft     RepOxtS  on the
                    usefulness          and Impact of National                  Practitioner      Data Bank
                    Reports    to      Iiosp~talS            and Managed       Care Organizations,
          To        OEI-01-94-00030               and   OEI-01-94-00032

                    Inspector         General,          OS


                    Attached  are the Public Health       Servi-ce   comments on the subject
                    OIG draft reports.     We appreciate the efforts of OIG 6taff in
                    developing these reports.      We offer only a few general
                    comments  and a sugges~ed   editorial       change.

                                                        (j#/$               42 L
                                                        Philip            . Lee, M.D.

                    Attachment
   ~
   PBLH           T S RVICE P                      OFFICE OF XNSPECTOR
   GENEM      (OIG) DRAFT REPORTS ON THE USEFULNESS AND IMPACT OF THE
     NATT ONAL PRACTITIONER DATA BANK TO HOSP TALS AND MAXAGED CAR
     ~R
                               DECE MBER 1994



 The      OIG inspections      were    performed      at   the   request    of the Health
 Resources        and Services      Administration         (HRSA).      The HRSA asked OIG
 to update        the February      1993 inspection        report      on the usefulness
 and impact        of National  Practitioner           Data Bank reports          to	
 hospitals,        and to consider     the Data        Bank’s relevance          to managed

 care    organizations.	

 we appreciate       the efforts      of the OIG staff and their           cooperation	
with program       officials       in HRSA in developing       these    reports.	
‘These reports       reflect    many of the changes       that     we suggested       to	
OIG staff     during       the exit   conference   and on subsequent          occasions.

we believe     that      these xeports      will be helpful      in administering	
the    program.	
Nevertheless, we believe that a wording change                         is needed       to	
pxovide     greater clarity        in the “Background”            section      of the	
Executive      Summary of both reports.               The first      paragxaph       in these	
sections     states      thaC “[Hospitals         are required         to request	
information        from the flata Eank about every physician                    and dentist	
who applles        for appointment      (they must qu=yat                least   every     two	
years).   ” The requirement          might    be better        understood       by readers	
if the parenthetical          phrase   was deleted          and replaced        with the	
following      sentence:      “In adciition,        hospitals      nmst.query       at least	
once every       two years    on every     practitioner         who ~S on ~hei=	
medical staff         or who has privileges.          “	
    /“’-%
i
ss
 s
      4
     t- (L
     %�
                     OEPARTMENTOF      HEALTH&     HUMAN    SERVICES                      -ice d theSecrelaw

                                                                                          Weshinglon,   O.C.   20201


                                                       FEB 27    W5
          To:            JuneGibbs Brown
                         Inspector General

          From:          Assistant Seeretary for
                         Planning and Evaluation

          Subject:       OIG Draft Reports on the Usefulness and Impact of the National Practitioner
                         Data Bank


       I have reviewed two draft inspection reports entitled, “National Practitioner Data Bank
       Reports to Hospitals: Their Impact *d Usefulness” and “National Practitioner Data Bank
       Reports to Managed Care Organizations: Their Impact and Usefulness. ” The purpose of the
       sumeys, as indi-ted in the title+ is to determine if the users consider the data bank to be
       usefid in making decisions about granting privileges to physicians, The purpose of OIG’S
       inqui~ is commendable and the survey methodology seems appsupriate.


       1 think, however, that the conclusions dxawn by OIG are a matter of interpretation and that
      the findings of the report cadd be used to support conclusions other than those drawn by
      OIG. For example, the findings from the survey of managed care entitiessuggest that the
      data bank is, contrary to 010’s contention, duplicative as indicated by the following
      responses.

                Officials said they setdom or rarely relied on a report from the data b~k “indeciding
                to deny privileges.  In fact, only 8% (questionnaire item 27, page 8) of the
                information was reported unavailable elsewhere. This implies that 92% found the
                information available elsewhere.

                The major finding that supports the OIG’S conclusion of data bank usefulness is the
                answer to the question, “OvcralI, was the information contained in the complete Data
                Bank response (i.e., all reports combined) useful 10you’?”(questionnaire item 27,
                page 8). Of those who answered, 96% said yes; however, only 60 of 200
                respondents or 30!%of the sample answeml the question. One em~d interpret this
                finding to indimte that only 30% of the sample could answer positively.

     I recommend that OIG discuss why its conclusion that the data bank is useful is a better
     reading ofthe evidence than the conclusion reached ab~­ --




     Prepar4
                                        -%%%s=
                  by; Mary Bymes 690-7388
   American Hospkal Association




  One North Franklin
  Chicago, IIlino!s tI0606
  Telephone 312.422.3000




  February 6, 1995	

 .June Gibbs Brown	
 Inspector General	
 Office of Inspector General	
 Department of Health & Human Services	
 Washington, D.C. 20201	

 Re:
       Draft Repoti - National Practitioner   Data Bank Reports to Hospitals:   Their Usefulness
            ond Impact

 Dear Ms. Brown

The American Hospital Association (AHA), on behalf of its 5.000 hospital members. welcomes
this opportunity to comment on the OffIce of Inspector General’s draft report on the usefulness
and impact of National Practitioner Data Bank reports to hospitals. Because our members are
principal users of Data Bank information and the chief financial support for Data Bank
operations. the AHA is exttemely interested in knowing how hospitals use this information and
whether it is useful to them during the credentialing and privileging process.

According[othedraft, hospitals are finding Data Bank information both more useful and more
timely than in a previous survey, conducted shortly ~f~r [he Dam Bank WaS imPlemen~d”
Although these findings are encouraging, OIG also reports that the proportion of “ne w“
information the Data Bank supplies actually has declined. While there may be some value in the
supplemental r(~le the Data Bank seems to have assumed in credentialing and privileging, we
question  whether that role comes at too high a price.    In other words, is the confirmatory
informs tion ~vorth the significant administrative   and financial burdens the Data Bank imposes on
hospita!s und other Data Bank users?

In short. although we are pleased that a greater percentage of hospitals fmd the Data Bank
generd[ly usetiJ. we are concerned that Data Bank information. acquired pursuant to statutory
mandute md at high cost to users, is not proving appropriate to and effective in hospital
decisionmaking.

Sinwrcl\.
                       /     ,,$:
 herican           Medical       Msociation
 Pfivwcmtm dediCJlt@(IIlhPMMh II( Arnerir;t



 ham S. Tedd,MD                516NorthStareStrwt       3[2464-5000
 Esemtive Vice FresldQnt       Chkago, Illinois 60610   312464-4184
                                                                 Fax



  February 1, 1995


 The Honorable June Gibbs Bruwn
 Inspector General

 Office of Inspector General	
 Department of Health and Human Services	
 330 hxiependenec Avenue, SW - Room 5246	
 Cohen Building	
 Washingmn, D.C. 20201	

          f)raft Inspection Repon. ~m’oml Praaitioner Dara Bank Reporrs to Hospirals:



 2-
The /&erican Medicai Association (AMA) is pleased to respond to your request for
comments on the OffIce of Inspwor ~ne=l’s (010 draft inspection report, National
Practitioner Data Bati Repofls ~0 Hos@ak Iheir Usefdness and Impacr, Decernkr
1994. l%c SQ~d PWPOSCOf this s~dy was (O update an assessment   of tic usefulness and
impact of information in M Natiod Pmctit~onerData Bank (NPDB) to hospitals.

After reviewing the December draft report, the AMA concludes that the report only
partially addresses the useflhess and impact of the NPDB aud doea not agtec with the
concluding observations. The AMA is very disappointed to see she serious flaws wc
identified
inthe February, 1993 OIG rcpon repea@d in this report. The AMA offers the
following                 report.

        commentson thedraft

The draft report again fafls to di=lo= the toti universe of queries or any operational
information. Since he AMA citi this m.arm as a most serious deficiency in the
Fcb~~, 1993 rtport, the MA qucs~o~ WhY@ OIG is not P=cn@! a m~m
comprehensive and accurate assessment of h usdikss      and impactof the NPDB. TM
AMA believes that some of the critical information from the August, 1994 OIG report,
Natioml Pnrctizimer Data Bmk: Profile of h.ialchesUp&ate, must be id.tiied in this
currentreport, For example, the foIlowing information needs to be included in the
background section of the drafi report

        As of April, 1994, the Data Bank had received 3,462,297 requests for information
        and 82,623 reports of adverse actions or malpractice pqmwnts. As 8 rtsd Of M
        queries made by April of 1994, 152,941 matches had occurred (144,649 matches
        as of February of 1994).
  Page 2	
  February 1.1995	
  The Honorable June Gibbs Brown	


  ‘IMSinformation provides a match me of 4.4 percent. Ninety-six percent of the queries
  resulted in no adverse action or malpractice information. The background section of the
  draft report presents a wry different pictw=. The draft report states, “as of February 25,
  1994, hospi~s had received. in response to queries. 108.552 reports of malpractice
  payments Or adverse aCtiOIKSagainst physicians. dentists, and other health care
  practitioners. ” This statement is wrong. The AMA believes that the word “matched”
  must be inserted between “108,552” and “reports” to rein.forcethe fact that this report is
  only looking at approximately 4.4 percent of the universe of queries.

  The report would be swengthened if the 010 would anaiyze tie matched reports baaed on
  the reason the hospitid was querying the NPDB. Of those rcspondema who queried the
 data bank, 69 pcmem did so co meet their statutorily mandated two year rquirememsf 29
 Pement didso on initial privileging or employment applications. and 2 pereent did so for
 professional review purposes. That analysis demonstrates that matches for initial
 applicants may be more imPor@ntthan if a practitioner was being tmerkmtialed. In the
 Februay. 1993 OIG repofi. 42 percem queried on initial privileging or ernpioymcm.
 This change in the reason for the query could be why the utdmovvninfomnation decreased
 from 40 pemcnt to 28 petcent.

The draft repro stares that 83 percentof hospi~ officials in period B now consider the
matched reports useful compared to 58 percent in period A. Again, however, the major
reason was that the information only cofilrmed other reports that were available
elsewhere. The draft report atr.emptsto justify the low match rate and impact on
crcdent.iaiing by stating that 77 pement of the respondents found that no adverse
information   was at least somewhat usefid and 71 pereetn found it worthwhile to query as
rhe current law requires. These resuks may have km predictable because the Likert
scale was skewed in favor of providing a positive response, and the other question was to
elicit a simple yes or no response. Forty-two petunt of the respondents who explained
their response stated that tie NPDB wss not WOrththe tune or money.

The AMA was pleased to see that the NPDB response time had impruved significantly.
However. the AMA is very conccmed about growing evidence that the NPDB is not
rcporcing all the information it should to hospiuds. Almost S pement of the hospiuds
idicated that the match report was incomplete. This indicates that there arc serious
problems whh the matching algorithm or how the reports are being entered into the
NpDB files. Since many hospitals justifi the usefulness on conftrmatiott of information,
[his growing trd raises questions about the “reai” Usefidness. The AMA bdieves r-hat
this is a significant f~ing and should be included in tie executive summary portion of
thc RPOR. In addi~ion. tie ~biic Heajt~ sc~lce n=ds (O ~C im.m~~te SWPStO
identifi rhe problem and correct it.
  Page 3	
  Fcbxuary 1.1995	
  The Honorable June Gibbs Brown	


  The   most impo~nt indi~tor of usefulness is whe~er ~      ma~h~ repons had an impact	
  on crcdemialing decisions. AlthoughperiodB shows a slight improvement over period	
  A, only 2 percent of ~C ma~h~ rCPOHS  made a diffemflcc in a privileging decision
  compared to 1 percent in period A. Whh a match rate of 4.4 percent and only 2 percent
  of matchedrepom hv~g m impct on privileging. M ovcd hpact is 0.09 percentor
 about one out of every 1.100 queries. After review of the draft report. the MUA
 seriously questions thc OIG’S concluding observations. The growing trend of tiw NPDB
 failing to provide complete information on a practitioner with an adverse action report
 and/or a ma]prac~icepayment rcpott rakes serious conoetns ah       NPDB reliability as a
 centralized source of Mo-tion.      In addition. tie Dam Bank is not a cost-effective
 mechanism to protect the public by preventing incompetent -or     unprofessional
 practitioners from practicing in hospitals. Very rarely did an NPDB query affect
 privileging decisions of hospnrds. Only 0.09 percent of the queries affect a credentiaiing
 decision.

 here is also no data presented to suggest that hospitils are overly reluctant to take
 adverse actions against incompetent and/or unprofessional practitioners. ln fact. hospitals
 and their medical staffs MC t.ddng SWPStO enh=c their continuous quaiity improvement
 programs to improve their patient care.

It is difllcult to justify tie dtit ati indirect costs of operating the NPDB to provide
reports that did not chmge nything or provided information hat simpiy confirmed
information thatwas already known. We urge you to consider our comments in order to
adequately assess the utility and impact of the NPDB to hospitals.




krnes S. Todd, MD
                           APPENDIX                    D

                                        NOTES




1.   Department of Health and Human Services, Officeof Inspector General, Mzti7mal
     Practitioner Data Bank: Profile of Matches Update, 0EI-01-94-OO031,
     August 1994.

2.   Department of Health and Human Services, Office of Inspector General,
     National Practitioner Databank: Useji.dness and Impact ofReports to Hospitals,
     0EI-01-90-O0520, February 1993.

3.   Thirty-eight percent rated professional society action reports extremely usefhl.

4.   Department of Health and Human Services, Public Health Service, Health
     Resources and Services Administration, Bureau of Healti Professions, Division of
     Quality Assurance, National Practitioner Data Bank: Third Annual Report
     (September, 1992 -August 31, 1993),1993,7.

5.   Of the 17 percent of reports found not useful, this is the primary reason they were
     found not useful.

6.   Over 23 percent did not answer why the reports did not have any impact on their
     decisions.

7.   We are 95 percent confident that the proportions of reports that provided new
     information to hospitals is between 20,033 and 30,048.

8.   We are 95 percent confident that the proportion of reports that affect hospital
     credentialing decisions is between 45 and 2,995.




                                         D-1
